      DEFENSE ENVIRONMENTAL SECURITY CORPORATE
          INFORMATION MANGEMENT PROGRAM


Report No. D-2001-015               December 7, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASD(C3I)              Assistant Secretary of Defense of Command, Control,
                        Communications and Intelligence
CIM                   Corporate Information Management
DENIX                 Defense Environmental Network Information Exchange
DESCIM                Defense Environment Security Corporate Information
                        Management
DMRD                  Defense Management Report Decision
DUSD(ES)              Deputy Under Secretary of Defense for Environmental Security
OSD                   Office of the Secretary of Defense
USD(AT&L)             Under Secretary of Defense for Acquisition Technology and
                        Logistics
                       Office of the Inspector General, DoD
Report No. D-2001-015                                            December 7, 2000
 (Project No. D2000AS-0207.00)

         Defense Environmental Security Corporate Information
                        Management Program

                                 Executive Summary

Introduction. The Chairman of the Senate Armed Services Committee requested a
comprehensive and detailed audit of the current status and operation of the Defense
Environmental Security Corporate Information Management Program.

DoD established the Corporate Information Management initiative in 1989 to improve
functional processes, make better use of information technology, and eliminate
duplicate information systems across seven administrative areas. In December 1991,
the corporate information management scope was broadened to include environment.
The Deputy Under Secretary of Defense for Environmental Security directed the
Defense Environmental Security Corporate Information Management (DESCIM)
Program. The program was not a discrete information system but rather a collection of
activities that included development, operation and maintenance of a web site, and
review and development of information systems and applications, initially conducted
under the rubric of the corporate information management initiative.

By 1993, it was apparent that the overall corporate information management initiative
was faltering and in October 1993 the Deputy Secretary of Defense directed that
migration systems be selected, within 6 months, for a follow-on DoD-wide transition to
selected systems over a period not to exceed 3 years. By 1997, most corporate
information management efforts had been abandoned as DoD sought new approaches in
responding to rapid changes in technology.

The Under Secretary of Defense for Acquisition Technology and Logistics decided to
continue funding the Defense Environmental Security Corporate Information
Management Program from the DoD operations and maintenance, defense-wide
account. Approximately $100.4 million was expended on the Defense Environmental
Security Corporate Information Management Program from 1992 through FY 2000.

Objectives. Our objective was to evaluate the status and operation of the Defense
Environmental Security Corporate Information Management Program.

Results. The DoD did not effectively implement and manage the development of the
DESCIM Program. The Deputy Under Secretary of Defense for Environmental
Security did not comply with policy to develop standard automated information systems
for defense environmental programs that met established mission and interoperability
requirements; develop environmental information systems consistent with information
technology and program acquisition development strategies; establish a solid program
infrastructure with a defined mission, cohesive organization, and clear management
responsibilities; and document the management or expenditure of program funds in a
responsible manner. As a result, the DESCIM Program has not succeeded despite the
expenditure of $100.4 million and 9 years of effort. Additionally, DoD did not realize
its goals to improve functional processes, to make better use of information technology,
and to eliminate duplicate environmental information systems across DoD. The
projected funding for the Defense Environmental Security Corporate Information
Management Program from FY 2001 through 2007 is $57.7 million. While there may
remain a need for corporate information reporting in the environmental area, DoD
could put $57.7 million to better use by terminating the DESCIM Program.

Summary of Recommendations. We recommend that the Under Secretary of Defense
for Acquisition Technology and Logistics terminate the Defense Environmental
Security Corporate Information Management Program and stop funding. We also
recommend that the Under Secretary for Acquisition Technology and Logistics issue
DoD instructions required to implement DoD Directive 4715.1, “Environmental
Security,” February 24, 1996, and also determine the DoD corporate environmental
reporting requirements at the federal, state, local, and international levels; and, in
cooperation with the Military Departments and Defense Agencies design appropriate
corporate mechanisms, to include relevant funding profiles, for complying with those
requirements.

Management Comments. We issued the draft audit report on October 31, 2000.
Management did not provide comments. We request that the Under Secretary of
Defense for Acquisition Technology and Logistics submit comments on the final report
by January 8, 2001.




                                           ii
Table of Contents

Executive Summary                                                    i


Introduction
     Background                                                      1
     Objectives                                                      1

Finding                                                              2


Appendixes
     A. Audit Process                                               12
          Scope                                                     12
          Methodology                                               12
          Management Control Program                                13
          Prior Coverage                                            13
     B. Corporate Information Management Initiative                 14
     C. Environmental Corporate Management Organization Structure   15
     D. Report Distribution                                         20
Background
           DoD established the Corporate Information Management (CIM) initiative in
           1989 to improve functional processes, make better use of information
           technology, and avoid the cost of developing and supporting redundant systems.
           The Assistant Secretary of Defense (Command, Control, Communications and
           Intelligence), (ASD[C3I]) issued policy and guidance at the Office of the
           Secretary of Defense level and received the initial funding for all CIM
           initiatives. The Under Secretary of Defense for Acquisition Technology and
           Logistics (USD[AT&L]) provided oversight to its principal staff assistants
           responsible for CIM and distributed the funds received from ASD(C3I) to each
           functional CIM under its purview.

           In December 1991, Defense Management Report Decision (DMRD) No. 920
           directed the establishment of a CIM effort for environmental information
           systems. Based on DMRD 920, USD(AT&L) initiated the Defense
           Environmental Security Corporate Information Management (DESCIM)1
           Program in 1992. The DESCIM Program, under the direction of the Deputy
           Under Secretary of Defense for Environmental Security (DUSD[ES]), was not a
           discrete information system development effort but rather a collection of
           activities that included the development, operation and maintenance of a web
           site and review and development of information systems and applications, all of
           which were initially conducted under the rubric of the CIM initiative.

           In the FY 2001 National Defense Authorization Act, section 319, Congress
           directed the Secretary of Defense to submit, not later than 60 days after the date
           of the enactment of the Act, a report to the congressional defense committees on
           the DESCIM Program. The report, which is pending, is to address issues with
           the DESCIM Program and contain specific recommendations regarding the
           future missions of the program.

Objectives
           We conducted the audit in response to a request in April 2000 from the
           Chairman of the Senate Armed Services Committee. The objective of the audit
           was to evaluate the status and operation of the Defense Environmental Security
           Corporate Information Management Program. See Appendix A for a discussion
           of the audit scope and methodology, the organizations visited and contacted,
           management controls, and a summary of prior coverage related to the audit
           objective.


1
    The original name for the program was Defense Environmental Corporate Information Management.
    The DUSD(ES) added Security to the program name at a later date.




                                                   1
           Administration of the Defense
           Environmental Security Corporate
           Information Management Program
           DoD did not effectively implement and manage the development of the
           DESCIM Program. This condition occurred because management did
           not:

           •   comply with policy to develop standard automated information
               systems for defense environmental programs that met established
               mission and interoperability requirements;

           •   develop environmental information systems consistent with
               information technology and program acquisition development
               strategies;

           •   establish a solid program infrastructure with a defined mission,
               cohesive organization, and clear management responsibilities; and

           •   document the management or expenditure of program funds in a
               responsible manner.

           As a result, the DESCIM Program has not succeeded after the
           expenditure of $100.4 million and 9 years of effort. Additionally, DoD
           did not realize its goals to improve functional processes, to make better
           use of information technology, and to eliminate duplicate environmental
           information systems across DoD. The projected funding for the Defense
           Environmental Security Corporate Information Management Program
           from FY 2001 through 2007 is $57.7 million. While there may remain a
           need for corporate information reporting in the environmental area, DoD
           could put $57.7 million to better use by terminating the DESCIM
           Program.

Departmental Policy
    The DUSD(ES) did not comply with information technology acquisition policy
    to ensure that the DESCIM Program met Departmental environment mission
    requirements.

    Corporate Information Management Initiative. The OSD began the CIM
    initiative in 1989 in an effort to save billions of dollars by streamlining
    operations and deploying standard information systems to support common
    business operations. The OSD believed that thousands of automated systems
    and numerous administrative and mission-related processes supporting DoD
    functions were redundant and inefficient. See Appendix B for a further
    discussion of the CIM initiative.


                                       2
The DMRD 920, December 13, 1991, established the requirement for
environmental functions to join in the CIM initiative. DMRD 920 stated that
the DoD environmental mission lacked a comprehensive management approach,
which resulted in inefficient and redundant organizations and slower overall
implementation of the environmental mission. The USD(AT&L) responsibility
was to ensure that automated systems developed for all environmental programs
met established DoD mission and interoperability requirements. DoD
transferred Component funds to OSD to support the centralization of the
DESCIM efforts. Additionally, the DMRD 920 stated that USD(AT&L) and
the Director, Defense Information, should establish a CIM group to determine
the actual automation development requirements for environmental systems as
rapidly as possible. Neither USD(AT&L) nor the Director, Defense
Information, formally chartered or established an environmental CIM group.
Department of Defense Directive 4715.1. This Directive, “Environmental
Security,” February 24, 1996, established the policy for DoD to display
environmental security leadership within DoD activities worldwide and support
the national defense mission. The Directive provided 14 points to accomplish
this including:

   •   cooperating with and involving appropriate United States federal, state,
       inter-state, Indian nation and local officials, and public stakeholders in
       the implementation of environmental security programs;

   •   making productive use of the corporate information management
       initiative;

   •   integrating environment, safety, occupational health, explosives safety,
       fire and emergency services, and integrated pest management values into
       DoD acquisition, procurement, maintenance, and repair processes for
       systems, equipment, facilities, and land; and,

   •   supporting international activities, consistent with national security
       policy, related to environmental security programs.

The directive required the USD(AT&L) to provide policy and guidance,
oversight, advocacy, and representation for environmental security programs,
and to issue organization and management guidance for and provide direction
and supervision to the Environment, Safety, and Occupational Health Policy
Board. Further, DUSD(ES) was to act on behalf of the USD(AT&L) on all its
environmental security-related authorities, serve as principal staff assistant for
the DESCIM Program, and prepare implementing instructions within one year.
As of October 2000, USD(AT&L) had not prepared organization and
management guidance for the board and DUSD(ES) had not prepared
implementing instructions.

Information Technology Policy. The on-going emphasis on obtaining the full
benefits of information technology has generated considerable Federal
Government and DoD policy and direction. Good oversight and management
practices dictate that DoD managers implement and follow such policy.

                                     3
        Clinger-Cohen Act of 1996. The Clinger-Cohen Act of 1996 required
that executive managers implement deliberate processes for maximizing value
and managing the risks of information technology acquisitions. The DESCIM
Program consistently lacked a disciplined approach. For example, although the
DESCIM Program began in 1992, DUSD(ES) did not complete a review of the
environmental information system universe until 1996.

       Office of Management and Budget. Office of Management and Budget
Circular Numbers A-123, “Management Accountability and Control,” June 21,
1995, and A-130, “Management of Federal Information Resources,”
February 8, 1996, established policy governing the management of Federal
programs, to include the requirement to design a management structure to
ensure accountability for results. DUSD(ES) did not adhere to the Office of
Management and Budget policies for the DESCIM Program.
        DoD Directive 5000.1. DoD Directive 5000.1, “Defense Acquisition,”
March 15, 1996, applied to all elements of the DoD. The Directive described
broad management principles that were applicable to all DoD acquisition
programs. The primary objective of the defense acquisition systems policy was
to acquire quality products that satisfy the needs of the operational user with
measurable improvements to mission accomplishment, in a timely manner, at a
fair and reasonable price. Successful acquisition programs are fundamentally
dependent upon competent people, rational priorities, and clearly defined
responsibilities. The acquisition management system governed by this directive
provided for a streamlined management structure and event-driven management
process that emphasizes risk management and affordability and that explicitly
links milestone decisions to demonstrated accomplishments.

        DoD Directive 8000.1. DoD Directive 8000.1, “Defense Information
Management (IM) Program,” October 27, 1992, described management
principles that are mandatory for all information management activities,
including those related to acquisition of information systems, resources,
services, and infrastructures. This policy applied to the information
management resources and services used for routine administrative and business
applications. It is DoD policy that accurate and consistent information shall be
made available to decision-makers expeditiously to effectively execute the DoD
missions. The policy further stated that a disciplined life-cycle approach shall
be used to manage information systems from inception through discontinuance.
Information systems are planned, acquired, developed, and implemented from a
DoD-wide perspective to ensure consistency of information and processes in and
across functional areas. Finally, information systems development or
modernization shall be based on sound business principles, incorporating the
evaluation of costs and benefits to include the satisfaction of mission
requirements; and consistency with life-cycle management policies and
procedures. Neither USD(AT&L) nor DUSD(ES) took steps to apply these
principles to systems managed under the DESCIM Program and did not
establish a solid program infrastructure with a defined mission, cohesive
organization, and clear management responsibilities.



                                   4
Management of the DESCIM Program
    DoD management did not ensure that an effective DESCIM Program was
    developed that reduced legacy and duplicate environmental information systems.
    The DUSD(ES) long-range goal was to organize the migratory systems into
    seven DoD target suites that covered overall environmental functional activities.
    The seven suites were Environmental Security Corporate Reporting, Cleanup
    Technology, Information/Technology Transfer, Environmental Planning and
    Assessments, Environmental Inventory Management, Safety/Defense Explosives
    Safety Management, and Conservation. According to DUSD(ES)
    documentation, development work for three of the seven suites, Cleanup
    Technology, Environmental Planning and Assessments, and Conservation, had
    not started and DUSD(ES) had no plans to perform automation support. The
    remaining four suites, Environmental Security Corporate Reporting,
    Information/Technology Transfer, Environmental Inventory Management, and
    Safety, were under development but were not being used by more than two
    Military Departments. In FY 1997, USD(AT&L) terminated funding for DoD
    CIM efforts from a central fund but decided to continue funding the DESCIM
    Program from its operations and maintenance, defense-wide account.

    Program Structure. The DUSD(ES) and the predecessor organization, the
    Deputy Assistant Secretary of Defense for the Environment, never established a
    solid program infrastructure with a defined mission, cohesive organization, and
    clear responsibilities in accordance with defense acquisition principles outlined
    in DoD Directives 5000.1 and 8000.1. In 1992, DUSD(ES) established the
    DESCIM Program office, on an ad hoc basis, using only detailees and contract
    employees to support DESCIM activities for over 6 years. The detailees were
    never formally assigned to DUSD(ES) and continued to be supported and
    appraised by their parent component. Frequent changes in personnel created
    program office turmoil and contributed to a lack of management stability,
    continuity, and coherence.

    The DESCIM Program directors were also detailees from the Military
    Departments and were expected to respond to multiple levels of guidance and
    supervision as shown in the organization charts in Appendix C. These multiple
    expectations of the Program Directors could not be fulfilled. Although
    DUSD(ES) provided the only consistent source of program direction with regard
    to both information systems development and funds management, the program
    was poorly managed. This was particularly the case following the collapse of
    other CIM efforts and subsequent lack of involvement by the Military
    Departments and ASD(C3I). In 1998, DUSD(ES) used OSD business process
    reengineering personnel billets to staff the technical director and functional data
    administrator positions for the program. These two positions were the first
    OSD personnel billets assigned to the DESCIM Program. Appendix C shows
    the different organizational structures of the DESCIM program management
    office from January 1992 to October 2000.

    Established Mission. For 9 years, the DESCIM Program functioned without a
    formal charter or strategic plan. The DUSD(ES) continued to disregard DoD
    Directive 8000.1, because it did not base the change in mission focus on sound
                                         5
business principles and incorporate the evaluation of costs and benefits to
include the satisfaction of mission requirements.

        Charter. Although a proposed charter for the DESCIM Program was
prepared and staffed in 1992, it was never finalized. Another charter signed by
the Principal Deputy Under Secretary of Defense for Environmental Security in
November 1999 was neither staffed with nor endorsed by the OSD, Military
Departments, or Defense Agencies staff components. The November 1999
charter belatedly attempted to establish the purpose, mission, functions,
organization, management responsibilities and relationships of the DESCIM
program management office, 8 years after the DMRD 920 established the
DESCIM Program. That charter stated that the DESCIM program management
office, as the primary DoD agent, should ensure that the automated information
management systems developed for all environmental security programs met the
DoD mission and interoperability requirements. The mission of the DESCIM
program management office, according to the November 1999 document, was to
coordinate the development and maintenance of integrated, cost effective, and
useful environmental security systems under the authority and direction of the
DUSD(ES) in cooperation with the Military Departments and the Defense
Agencies, in a manner that precluded duplication. The charter may have been
appropriate in 1992 but was out-of-date in 1999 considering that DoD had
reassessed the need of the CIM program before November 1999. The DoD
determined that the CIM program had not succeeded in reducing the cost of
system development and support.

         Strategic Plan. The DUSD(ES) never coordinated, approved, or
implemented a strategic plan for the DESCIM Program. DUSD(ES) wrote a
draft strategic plan in 1994 which underwent several revisions, but never
approved the document. The DUSD(ES) staff prepared another draft strategic
plan titled “FY 2001 Strategic Plan,” which was essentially the same as the
1994 plan. As of October 2000, DUSD(ES) has not finalized the FY 2001
strategic plan.

        Program Redirection. The initial DMRD 920 established an
environmental CIM in late 1991 to ensure that automated systems developed for
all environmental programs met DoD mission and interoperability requirements.
DMRD 920 states, “This is particularly crucial in successful implementation of
the environmental program since installations may have more in common with
another installation in the same state than with an installation in another state but
in the same Service.” To facilitate that goal, all funds expended to upgrade or
develop DoD component environmental information systems were transferred
from the component budgets to OSD.

By October 1993, the emphasis of all DoD CIM initiatives shifted from
development and reengineering of systems to the elimination of legacy systems.
The DESCIM Program responded by selecting 93 of the 1,766 legacy systems
for further evaluation. By 1996, DUSD(ES) narrowed that universe to 29
environmental functional activity areas, but lost focus of both the developmental
and installation levels. The initial goal of DUSD(ES) was to provide common
tools to respond to the requirements generated by the Components.

                                      6
One of the tools developed under the umbrella of the DESCIM Program was the
Defense Environmental Network Information Exchange (DENIX), a worldwide
web site. DENIX was the only DESCIM Program-developed tool used by all
the Services and Defense Agencies. The site included email, file upload and
download capability, and access to licensed copies of environmental
subscriptions. However, DENIX did not fulfill the requirements of DMRD 920
nor was it within the scope of what the DESCIM Program was established to
accomplish. DENIX also did not ensure that automated systems developed for
environmental functional areas met the mission and interoperability
requirements established by DoD. While informative, the web site did not
reduce duplicative or inefficient environmental systems within the DoD, with
the possible exception of the number of subscriptions to various environmental
publications and information bulletin boards. Additionally, the environmental
community stated that constant changes reduced the usefulness of the web site.
The changes were more public relations driven than user driven. The DESCIM
Program completely funded the development, operation, and maintenance of
DENIX while the operation and maintenance of all other environmental systems
under the DESCIM Program umbrella were paid for by the Military
Departments that ran the system.

DoD Directive 4715.1, February 1996, added new areas of emphasis to the
environmental portfolio, particularly in the areas of international security
partnerships and partnerships with state and local governments. This new
emphasis was reflected by the travel of the third DESCIM director in FY 1998
who was absent from the Washington area on travel 38 percent of the working
days that year. The DUSD(ES) managers’ and the DESCIM director’s travel
included trips to Darwin, Australia; Johannesburg, South Africa; and
Stockholm, Sweden. Although this travel was not inconsistent with DoD
policy, the DESCIM Program made little progress during this period.

The DESCIM Program redirection continued in FY 2000. A program briefing
provided to the Senate Armed Services Committee in early spring 2000 by the
DUSD(ES) indicated there were two major program changes in FY 2000: the
shift from installation to DoD corporate requirements and the reduction of all
functional activities under DUSD(ES). The DESCIM program management
office would develop applications that satisfy the DoD corporate information
requirements, particularly in the area of corporate reporting. In May 2000,
however, DUSD(ES) stated that DESCIM Program systems were being
developed for use by the Components because the requirements that existed at
DUSD(ES) were broad requirements, such as the fulfillment of a DoD-wide data
call. Finally, DUSD(ES) stated in June 2000 that it was preparing a
termination/transition plan that would define the direction of the DESCIM
Program. As of October 2000, DUSD(ES) had not completed the
termination/transition plan.

Program Assessment. The DUSD(ES) had continual problems with program
management functions in the DESCIM Program. The DUSD(ES) initiated at
least three independent assessments of the DESCIM Program since its inception
in 1992.


                                   7
    The Center for Integration and Interoperability performed the first assessment
    and issued “A Proposed Strategy for Implementing the Environmental Security
    CIM,” on October 1, 1993. The proposed strategy, which was not adopted,
    was followed by a draft strategic concept document prepared by the Systems
    Research and Applications Corporation on April 8, 1994. That document
    concluded there was no clear guidance for the DESCIM Program because
    USD(AT&L) had not published an environmental security policy and the
    DESCIM was understaffed and under-resourced; lacked component support; and
    had no vision. The DUSD(ES) did not heed those early cautionary notes.

    By late 1998, the Military Departments expressed concern about the lack of
    progress by the DESCIM Program. In response to their concerns, the
    DUSD(ES) contracted with the Science Application International Corporation to
    conduct a program review. The Science Application International Corporation
    review, completed in March 1999, concluded that the required products were
    not produced on time and the large amount of funding provided for the program
    from 1992 through 1998 had resulted in few products with limited users. Other
    findings included a lack of cooperation on DESCIM systems throughout DoD;
    the lack of a formal plan or strategy to show program goals and objectives; a
    severe problem with rotating personnel; and poor internal and external
    communications.

Funds Management
    Financial controls for the DESCIM Program were flawed. We asked
    USD(AT&L) and DUSD(ES) to document obligations and expenditures of funds
    spent and projected for use by the program from FYs 1993 to 2000, excluding
    component funding in the earlier years for salaries and office support. The
    USD(AT&L) and DUSD(ES) could not provide any detailed financial records or
    information from FY 1993 through FY 1998, over 5 years, stating that all the
    DESCIM Program financial files for that period were at the Army
    Environmental Center. However, DUSD(ES) did provide supporting DESCIM
    financial information for FYs 1999 and 2000.

    Because of the USD(AT&L) or DUSD(ES) inability to provide complete
    information pertaining to expenditures for the DESCIM Program, DUSD(ES)
    issued two memoranda on July 19, 2000, one to the Assistant Secretary of the
    Navy for Installations and Environment and the other to the Assistant Secretary
    of the Army for Installations and Environment, to request assistance in
    identifying and gathering the DESCIM Program funding. DUSD(ES) asked the
    Navy to perform a detailed audit of any personal records in the possession of
    two prior DESCIM directors for the period FY 1993 through FY1998. At the
    same time, DUSD(ES) asked the Army to initiate a comprehensive and detailed
    audit of all DESCIM funding transactions for the period FY 1993 through
    FY 1998 which were maintained at the Army Environmental Center at Aberdeen
    Proving Ground.

    We interviewed the prior DESCIM Directors but obtained limited information
    about the status of DESCIM funding. We also contacted the Army

                                       8
Environmental Center to obtain information concerning DESCIM Program
funds management.

The Army Environmental Center served as a management support office for the
DESCIM Program from FYs 1993 to 1998. This arrangement was ad hoc, as
were most arrangements pertaining to the DESCIM Program, and occurred, at
least in part, because the individual detailed by Army to serve as a technical
director of the DESCIM Program was located at the Army Environmental
Center. All funds to support the DESCIM Program were provided through the
Defense operations and maintenance, defense-wide account. Funding for the
DESCIM Program was drawn from the USD(AT&L) allotment of Defense
operations and maintenance, defense-wide account, and was transferred to the
Army Environmental Center for program expenditures, as directed by
DUSD(ES).
We obtained and reviewed personal files from the two prior directors and
financial files pertaining to DESCIM located at the Army Environmental Center.
The two prior directors each stated that, at the time of their departures from
DUSD(ES), official detailed financial program files existed. The Army
Environmental Center employees provided detailed financial records for all
funds managed by the Army Environmental Center at the behest of DUSD(ES).
Beginning in October 1999, the Assistant Chief of Staff Installation Management
(Army) assumed responsibility for serving as the DESCIM management support
office documented by a written agreement dated October 7, 1999. For
FY 1999, the Assistant Chief of Staff for Installation Management (Army)
executed funding in the amount of $10.9 million at the direction of DUSD(ES)
and another $10 million in FY 2000.

The following chart shows the funds Army Environmental Center received from
and expended as directed by DUSD(ES) for FY 1993 through 1998 and the
FY 1999 and 2000 funds managed by the Assistant Chief of Staff Installation
Management (Army).

     FY        1993     1994      1995       1996   1997      1998      1999      2000
      $        9.6       11.9     9.8        14.2    16.3     17.7      10.9      10.0
  $ in millions
  Source: FYs 1993 through 1998, Army Environmental Center
             FYs 1999 through 2000, Assistant Chief of Staff Installation Management (Army)


During the audit, the DESCIM director documented the funding allocation for
the DESCIM Program among the different program systems in FYs 1999 and
2000, and projected for FY 2001. However, the program funding outline did
not follow the Comptroller funding directives of OSD Program Budgeting
Decision No. 071, November 20, 1995, which stated that as of FY 1996, the
third year of DESCIM funding, the DESCIM program should have transitioned
to a maintenance level, which required only minimal funding in FY 1997 and
later years. Despite this guidance, continued development and operation of the
DENIX web site, which was fully deployed in 1993, accounted for 28 percent of
the projected FY 2001 DESCIM budget of $14 million. As shown in the

                                         9
following illustration, 88 percent of the DESCIM budget projected for FY 2001
provides for program office support, continued web site development, and
systems developed solely to support DUSD(ES) operations.


                   FY 2001 DESCIM Workplan

                             1
               DUSD(ES)
                Support
                 40%                                         OTHER
                                                                      2

                                                              12%




                                                              PMO
                                                              20%
                         DENIX
                          28%
  1
   C orporate R eporting Module, S olid W aste Annual R eport Module, Integrated
  P est Management Information S ystem, L egacy P roject T racker, and the
  D efense E xplosiv es S afety Management S ystem.
  2
   E nv ironmental Quality R eporting, D efense S ite E nv ironmental R estoration
  T racking S ystem, E nv ironmental P rogram R equirements, Hazardous
  S ubstance Management S ystem, E nv ironmental Inv entory Management S uite,
  and C ommercial/G ov ernment Off the S helf R ev iew and Analysis.




The failure of either USD(AT&L) or DUSD(ES) to maintain records regarding
the operations of the DESCIM Program from FY 1992 through FY 1998
constitute a breach of the requirements of DoD Directive 5015.2, “DoD
Records Management Program,” March 6, 2000, particularly section 5.3.2.,
which directs that records be: “created, maintained, and preserved to document
the organization, functions, policies, decisions, procedures, and essential
operational, logistical, and support transactions of the DoD.”

The directive further directs the head of each DoD Component to advise all
employees of their responsibility to: “create and maintain records; and not
remove records from Government custody or destroy them, except as required
or allowed under authorized record schedules.”



                                       10
Summary
    The USD(AT&L) and DUSD(ES) never established a clear mission or identified
    user requirements for the DESCIM Program and did not ensure that the
    attributes of an information technology project were applied to the DESCIM
    Program. Additionally, the DESCIM Program did not eliminate redundant
    systems and inefficient administrative and mission-related processes. Also, the
    USD(AT&L) and DUSD(ES) did not practice sound business management
    practices, including use of performance goals and measures, nor provide the
    necessary oversight to ensure that the DESCIM Program would be effective.
    The DESCIM Program has not been successful and mere restructuring is
    unlikely to produce better results. Further, DESCIM Program results do not
    justify the $100.4 million cost through FY 2000. While there may remain a
    need for corporate information reporting in the environmental area, DoD could
    put $57.7 million to better use by terminating the DESCIM Program. If
    USD(AT&L) and DUSD(ES) determine that a need for corporate information
    reporting exists, the acquisition process must comply with DoD directives for
    information technology acquisition, to include planning, documentation, and
    funding requirements executed with the support of appropriately trained
    acquisition personnel.

Recommendations
    We recommend that The Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

       1. Terminate the Defense Environmental Security Corporate Information
          Program and stop all funding.

       2. Issue DoD instructions required to implement DoD Directive 4715.1.

        3. Determine the DoD corporate environmental reporting requirements at
    the Federal, state, local, and international levels; and, in cooperation with
    Military Departments and Defense Agencies, design appropriate corporate
    mechanisms, to include relevant funding profiles, for complying with those
    requirements.

    Management Comments Required
    The Under Secretary of Defense for Acquisition Technology and Logistics did
    not comment on a draft of this report. We request that the Under Secretary of
    Defense for Acquisition Technology and Logistics provide comments on the
    final report by January 8, 2001.




                                       11
Appendix A. Audit Process

Scope
    Work Performed. We performed this audit in response to an April 25, 2000,
    request from the Senate Committee on Armed Services, which asked that we
    conduct a detailed review of the DESCIM Program and address the progress of
    the Program and performance since its inception in FY1992. We reviewed the
    available program and funding documentation, both draft and signed, from
    FY1992 through FY2000 including program charters, strategic plans, program
    reviews, contracts, and financial summaries. Additionally, we assessed the
    program against applicable CIM, Information Technology, and Environmental
    criteria and policy requirements from 1989 through 2000.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Goals. In response to the Government Performance and Results Act,
    the Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures.

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           • Information Technology Management Area. Objective: Provide
             services that satisfy customer information needs. Goals: Modernize
             and integrate Defense information infrastructure. (ITM-2.2) and
             Improve information technology management tools. (ITM-2.4)

           • Information Technology Management Area. Objective: Reform
             information technology management processes to increase efficiency
             and mission contribution. Goal: Institute fundamental information
             technology management reform efforts. (ITM-3.2)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Information Management and Technology high-risk area.

Methodology
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Audit Type, Dates and Standards. We performed this economy and efficiency
    audit from May through October 2000. The audit was conducted in accordance
    with auditing standards issued by the Comptroller General of the United States,
    as implemented by the Inspector General, DoD.
                                       12
    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Management Control Program
    DoD Directive 5010.38, “Management Control (MC) program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, required DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs achieve their intended results, resources are used
    consistent with agency mission, are operating as intended, and resources are
    protected against fraud, waste, and mismanagement.

    Scope of Review of the Management Control program. Although we did not
    review the DESCIM Program’s management control program, we reviewed the
    adequacy of management controls as they relate to the status and operation of
    the DESCIM Program. Specifically, we reviewed the management of and
    funding process of the DESCIM Program. We interviewed personnel from the
    DESCIM Program Management Office, DUSD(ES), the DoD Comptroller,
    Washington Headquarters Service, the Army Environmental Center, the
    Assistant Chief of Staff for Army Installation Management, Naval Facilities
    Engineering Command, and the Military Department Secretariats.

    Adequacy of Management Controls. We identified a material control
    weakness, as defined by DoD Directive 5010.38, for the DESCIM Program.
    The USD(AT&L) and DUSD(ES) never established clear requirements for the
    DESCIM Program and did not ensure that the program management attributes of
    an information technology project were applied to the DESCIM Program. The
    USD(AT&L) and DUSD(ES) also did not practice sound business management
    practices or provide necessary oversight to ensure that the DESCIM Program
    would be effective. Additionally, the USD(AT&L) and DUSD(ES) had not
    implemented management controls or maintained complete financial records that
    provided reasonable assurance that revenues, obligations, and expenditures
    applicable to DESCIM Program operations for FY 1992 to FY 1998 were
    properly recorded and accounted to permit the preparation of accurate accounts
    and reliable statistical reports.

Prior Coverage
    During the past 5 years, there have been no audit reports issued that related to
    the DESCIM Program.




                                        13
Appendix B. Corporate Information
            Management Initiative
   The Deputy Under Secretary of Defense memorandum “DoD Corporate
   Information Management,” October 4, 1989, that established the CIM initiative
   and stated that DoD needed to improve the standardization, quality, and
   consistency of data from multiple management information systems. The
   memorandum also called for the establishment of an executive-level group of
   experts to provide broad guidance. The Secretary of Defense issued a
   memorandum “Implementation of Corporate Information Management
   Principles,” November 16, 1990, that stated the objective of implementing the
   CIM initiative was to establish strong centralized policies for implementation of
   CIM principles through decentralized management structures. The Secretary of
   Defense assigned ASD(C3I) responsibility for establishing an organization to
   implement CIM throughout DoD and for ensuring the proper integration of DoD
   computing, telecommunications, and information management activities.

   As CIM was envisioned, DoD emphasized two ways of achieving process
   improvements and addressing problems associated with its disparate and
   stovepipe information technology environment. The first was to reengineer
   business processes and then apply technology to the new processes. The second
   involved selecting the best DoD information systems from groups of legacy
   systems that provided similar automated support services and eventually
   replacing the duplicative systems with the best systems.

   In 1997, the RAND Corporation assessed the CIM effort. The assessment
   looked at the DoD restructuring and reshaping of infrastructure and business
   practices in “Strategic Appraisal 1997: Strategy and Defense Planning for the
   21st Century.” The appraisal concluded that the CIM effort was widely viewed
   as a failure in most quarters of DoD. The CIM had not resulted in either
   significant process reengineering or visible savings in the hardware and software
   required to support information systems in the DoD infrastructure. The
   appraisal states that the main lesson of the CIM initiatives was that top-down,
   centralized management does not appear to work in the organizational
   environment of the defense establishment.




                                      14
Appendix C. Environmental Corporate
            Management Organization
            Structure

January 1992

                              USD(A)                          ASD(C3I)


                            DASD(E)                     DDI              DISA

         DASA                                                               ACSIM (Army)
                                        DESCIM Director (#1)
        DASN                            Army Nonreimbursable
                                                                            ODEP (Army)
       DASAF

          DLA




                        Technical Director                    Military Departments and
                          Army (AEC)                              Defense Agencies
                     nonreimbursable detailee                     nonreimbursable
                                                                       detailees




Acronyms for organization charts are found on page 19




                                         15
              Environmental Corporate Management Organization Structure
                                      (Cont’d)

      June 1992

                            USD(A)                            ASD(C3I)


                                                          DDI            DISA
                          DASD(E)
                                                                             ACSIM (Army)

                                     DESCIM Director (#2)
           NAVFAC                                                               ODEP (Army)
                                  Navy Nonreimbursable detailee



             DASA


            DASN
                                                                  Military Departments and
                                                                      Defense Agencies
            DASAF                                                 nonreimbursable detailees
              DLA

                                      Technical Director
                                        Army (AEC)
                                   nonreimbursable detailee




                          Contractors                         CDAs




Acronyms for organization charts are found on page 19


                                               16
       Environmental Corporate Management Organization Structure
                               (Cont’d)
1996

                         USD(AT&L)
                                                        ASD(C3I)


                         DUSD(ES)                          DISA


                             EOSHPB


                                        DESCIM Director (#3)
                                                                            ACSIM (Army)
                                               Navy
         NAVFAC                        nonreimbursable detailee
                                                                             ODEP (Army)



               DASA

               DASN
                                                                   Military Departments and
              DASAF                                                    Defense Agencies
                                                                   nonreimbursable detailee
                 DLA


                                                                       Technical Director
                         Contractors          CDAs                       Army (AEC)
                                                                    nonreimbursable detailee




Acronyms for organization charts are found on page 19




                                         17
                 Environmental Corporate Management Organization Structure
                                         (Cont’d)

         1998 to Present

                         USD(AT&L)



                   DUSD(ES)



                PDUSD(ES)

                                                         DESCIM Director (# 4)
                       EOSHPB                               OSD BPR slot


              DUSD(ES)(PI)




     Functional Data Administrator
                                            Contractor            Contractor     Contractor
            OSD BPR slot




Acronyms for organization charts are found on page 19




                                                  18
  Environmental Corporate Management Organization Structure Acronyms

ACSIM     Assistant Chief of Staff for Installation Management (Army)
ASD(C3I) Assistant Secretary of Defense for Command, Control, Communication, and Intelligence
AEC       Army Environmental Center
CDA       Central Design Activities
DASA      Deputy Assistant Secretary of the Army for Environmental Safety & Occupational Health
DASAF     Deputy Assistant Secretary of the Air Force for Environment, Safety & Occupational Health
DASD(E) Deputy Assistant Secretary of Defense for Environment
DASN      Deputy Assistant Secretary of the Navy for Environment & Safety
DDI       Director, Defense Information
DISA      Defense Information Systems Agency
DLA       Defense Logistics Agency
DUSD(ES) Deputy Under Secretary of Defense for Environmental Security
DUSD(ES)(PI) Deputy Under Secretary of Defense for Environmental Security Program Integration
DESCIM    Defense Environmental Security Corporate Information Management
EOSHPB    Environmental, Occupational, Safety and Health Policy Board
NAVFAC Naval Facilities Engineering Command
ODEP      Office of the Director Environmental Programs
OSDBPR    Office of the Secretary of Defense Business Process Reengineering
PDUSD(ES) Principal Deputy Under Secretary of Defense for Environmental Security
USD(A)    Under Secretary of Defense for Acquisition
USD(AT&L)Under Secretary of Defense for Acquisition Technology and Logistics (Formerly USD(A))




                                                19
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Acquisition, Technology, and Logistics)
  Deputy Under Secretary of Defense (Environmental Security)
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Command, Control, Communications, and
  Intelligence

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Installation and Environment)
  Deputy Assistant Secretary of the Army (Environmental Safety and Occupational
      Health)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Installation and Environment)
  Deputy Assistant Secretary of the Navy (Environment and Safety)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Manpower, Reserve Affairs, Installations and
  Environment)
  Deputy Assistant Secretary of the Air Force (Environment, Safety and Occupational
      Health)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




                                        20
Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       21
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector General, DoD, who contributed to the report are listed below.

   Thomas G. Gimble
   Mary Lu Ugone
   Wanda A. Hopkins
   Kathryn M. Truex
   Jacqueline L. Wicecarver
   Scott S. Brittingham
   W. Ryan Pusey
   Paul D. Johnston




                                     22
